                  Additional Effort Answering Tax Law
               Questions Would Improve Customer Service

                                    August 2004

                       Reference Number: 2004-40-150




This report has cleared the Treasury Inspector General For Tax Administration disclosure
review process and information determined to be restricted from public release has been
                              redacted from this document.
                                             DEPARTMENT OF THE TREASURY
                                                  WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                                    August 24, 2004


       MEMORANDUM FOR COMMISSIONER, WAGE AND INVESTMENT DIVISION



       FROM:                        (for) Gordon C. Milbourn III
                                    Acting Deputy Inspector General for Audit

       SUBJECT:                     Final Audit Report - Additional Effort Answering Tax Law
                                    Questions Would Improve Customer Service
                                    (Audit # 200440038)


       This report presents the results of our review of the Internal Revenue Service’s (IRS)
       toll-free telephone assistance program. Our objective was to determine whether
       taxpayers received quality service when calling the IRS Toll-Free Customer Service
       telephone number (1-800-829-1040) to ask tax law questions during the 2004 Filing
       Season.1 We performed this audit as part of the Treasury Inspector General for Tax
       Administration’s (TIGTA) continuing annual reviews of the performance of key customer
       service programs.2
       In summary, IRS Customer Service Representatives (CSR) exceeded goals in each of
       the key measures of Professionalism and Timeliness but were less than satisfactory
       when providing accurate tax law answers during the 2004 Filing Season. Each year,
       millions of taxpayers call the IRS for assistance in understanding the tax law and
       meeting their tax obligations. During the 2004 Filing Season, IRS CSRs answered over
       15.8 million Customer Account Services3 toll-free telephone calls. Over 7.3 million of
       these calls were answered on the toll-free telephone number, 1-800-829-1040. The IRS


       1
         The period from January through mid-April when most individual income tax returns are filed.
       2
         A separate TIGTA review was performed to evaluate the access of services provided to taxpayers that called
       the toll-free telephone system, Taxpayers Experienced Improved Access to Toll-Free Telephone Services During the
       2004 Filing Season (Reference Number 2004-30-144, dated August 2004). An additional audit is being performed
       to evaluate a feasibility study on the outsourcing of tax law calls (Audit # 200330043).
       3
         Customer Account Services is a Wage and Investment Division operating unit, responsible for 75 percent of all
       IRS toll-free telephone operations, that assists taxpayers with their accounts, tax law and email inquiries, and
       account-related correspondence.
                                                       2

estimates that, in 4 million of these 7.3 million calls, taxpayers had questions about the
tax law and spoke with a CSR.
With continued demands from taxpayers for assistance and the increased complexity of
the Federal tax code, the quality of service to taxpayers remains among the major
management challenges the IRS faces in Fiscal Year (FY) 2004. One of the IRS’ major
strategies for FY 2004 is to reduce taxpayer burden by improving the quality and
efficiency of service delivery. The aim is to provide prompt and courteous responses to
all requests for assistance. The IRS’ goal is to make its telephone operation a
“world-class customer service organization” that provides taxpayers with accessible and
accurate tax assistance.
Using a judgmental sample of 129 screener4 and 354 CSR monitored calls during the
period January 20 through February 18, 2004, we determined employees generally
provided professional and timely service. However, CSRs provided taxpayers with
accurate answers to their tax law questions for only 62 percent (200 of 322)5 of the calls
monitored. This is a decrease from the 73 percent accuracy rate we reported last year
for the period January 27 through March 13, 2003. This happened, for the most part,
because CSRs are not using or completely using the required Probe and Response
(P&R) Guide to obtain sufficient information from taxpayers or are not correctly
interpreting the tax law. IRS results from a sample of 1,527 tax law calls monitored for
customer accuracy during the same time period and for the same tax law applications
indicated a customer accuracy rate of 74 percent (1,132 of 1,527 opportunities). The
IRS’ tax law accuracy goal for CSRs is 85 percent for FY 2004.
Of the 122 toll-free tax law question calls in which taxpayers received inaccurate
(incorrect or incomplete) answers, it is probable that 97 (80 percent) of the taxpayers
would have received a correct and complete answer if the CSR had thoroughly used the
P&R Guide and obtained sufficient information from the taxpayers. The IRS is also
concerned that, without sufficient use of the P&R Guide, CSRs are unable to fully
understand a taxpayer’s situation and may provide guidance and information that is
incorrect or incomplete. Therefore, the Director, Accounts Management, Wage and
Investment Division, included in the FY 2004 Program Letter that failure to use the
Guide would be addressed as both a conduct and performance issue. We are making
no recommendations this year since the need to ensure better use of the P&R Guide
was reported in our 2 prior year reviews of Toll-Free Tax Law Assistance.6
Management’s Response: IRS management noted that providing customers with
accurate tax law answers remained a challenge during the 2004 Filing Season and

4
  Screeners transfer taxpayers to applications that are staffed with CSRs who are certified in answering specific
inquiries.
5
  CSRs answered taxpayers’ questions for 322 of the 354 CSR calls monitored. The remaining 32 calls
(354-322=32) were transferred to other CSRs. We were unable to follow the taxpayers through transfers.
6
  The Quality of Toll-Free Tax Law Assistance During the 2002 Filing Season Improved; However, More Can Be
Done to Improve Quality and Enhance Service (Reference Number 2002-40-137, dated August 2002), and Toll-Free
Tax Law Assistance to Taxpayers Is Professional and Timely, but Improvement Is Needed in the Information
Provided (Reference Number 2003-40-216, dated September 2003).
                                          2

acknowledged less than satisfactory performance early in the 2004 Filing Season. They
agreed that most errors could be avoided if the P&R Guide was used properly and
stressed to the CSRs and managers the importance of completely using the P&R
Guide. IRS management also noted that the decline in the tax law accuracy rate was
caused by a formatting revision to the P&R Guide in FY 2003 that did not enhance its
usability as anticipated and that changes made to improve customer access had a
negative impact on accuracy. IRS management agreed with our outcome measures.
Management’s complete response to the draft report is included as Appendix VIII.
Please contact me at (202) 622-6510 if you have questions or Michael R. Phillips,
Assistant Inspector General for Audit (Wage and Investment Income Programs), at
(202) 927-0597.
     Additional Effort Answering Tax Law Questions Would Improve Customer Service




                                              Table of Contents


Background ............................................................................................... Page 1
Customer Service on the Toll-Free Telephone Lines
Has Not Reached “World-Class Service” Level ......................................... Page 6
Appendix I – Detailed Objective, Scope, and Methodology ....................... Page 12
Appendix II – Major Contributors to This Report........................................ Page 14
Appendix III – Report Distribution List ....................................................... Page 15
Appendix IV – Outcome Measures ............................................................ Page 16
Appendix V – Embedded Quality............................................................... Page 18
Appendix VI – Comparison of Treasury Inspector General for Tax
Administration and Internal Revenue Service Calls Monitored by
Question Category..................................................................................... Page 20
Appendix VII – Quality Measures Used to Evaluate Taxpayers’
Experience................................................................................................. Page 21
Appendix VIII – Management’s Response to the Draft Report .................. Page 23
    Additional Effort Answering Tax Law Questions Would Improve Customer Service

                                Each year, millions of taxpayers contact the Internal
Background                      Revenue Service (IRS) seeking assistance in understanding
                                the tax law and meeting their tax obligations by either
                                calling the various toll-free telephone assistance lines,
                                accessing the IRS Internet web site, or visiting an IRS
                                assistance center. Although accessing the IRS web site is
                                the single most frequent means of contact with the IRS for
                                taxpayers, the second most frequent means is calling the
                                toll-free telephone assistance lines.
                                According to the April 2003 IRS Oversight Board Annual
                                Report, 90 percent of Americans surveyed viewed the IRS
                                service of providing a toll-free telephone number to answer
                                their questions as either very or somewhat important to
                                them. This same Report also reflected the fact that,
                                although taxpayer demands for assistance continue to grow,
                                so too does the complexity of the Federal tax code.
                                The quality of service provided to taxpayers remains among
                                the major management challenges the IRS faces in Fiscal
                                Year (FY) 2004. One of the IRS’ major strategies for
                                FY 2004 is to reduce taxpayer burden by improving the
                                quality and efficiency of service delivery. The aim is to
                                provide prompt and courteous responses to all requests for
                                assistance. The IRS’ goal is to make its toll-free telephone
                                operation a “world-class customer service organization” that
                                provides taxpayers with accessible and accurate tax
                                assistance. To ensure a successful filing season,1 the
                                Director, Accounts Management, Wage and Investment
                                (W&I) Division, annually certifies that all elements of the
                                basic filing season certification document are incorporated
                                into the overall planning process and that all items will be
                                monitored for progress and timely delivery.
                                During the 2004 Filing Season, IRS Customer Service
                                Representatives (CSR) answered over 15.8 million
                                Customer Account Services2 toll-free telephone calls. Over
                                7.3 million of these calls were answered on the toll-free


                                1
                                  The period from January through mid-April when most individual
                                income tax returns are filed.
                                2
                                  Customer Account Services is a W&I Division operating unit,
                                responsible for 75 percent of all IRS toll-free telephone operations, that
                                assists taxpayers with their accounts, tax law and email inquiries, and
                                account-related correspondence.
                                                                                                   Page 1
Additional Effort Answering Tax Law Questions Would Improve Customer Service

                            telephone number, 1-800-829-1040. The IRS estimates that,
                            in 4 million of these 7.3 million calls, taxpayers had
                            questions about the tax law and spoke with a CSR.
                            When calling the toll-free telephone number with a tax law
                            question(s), the taxpayer uses an automated menu. The
                            taxpayer is provided, in English, four touchtone main menu
                            options with secondary options:
                            1. Preparing or filing individual income tax returns. This
                               option provides the taxpayer with a second automated
                               menu from which to choose one of the following
                               options:3 (1) ordering tax forms or publications,
                               (2) finding information about a missing Form W-2 or
                               Form 1099,4 (3) finding the amount of his or her
                               Advanced Child Tax Credit, (4) finding addresses to
                               mail payments or a tax return to the IRS, or (5) getting
                               help with a tax law question.
                            2. Requesting information on a tax refund or personal tax
                               account. This option provides the taxpayer with a
                               second automated menu from which to choose one of
                               the following options: (1) requesting refund information
                               or (2) getting answers to personal account questions.
                            3. Using the business and specialty tax line or obtaining
                               the address for the IRS Internet web site.
                            4. Repeating the above options.
                            If the taxpayer does not select an option or is calling from a
                            rotary phone and is unable to select a touchtone option, the
                            same script is repeated providing voice response options. If
                            the taxpayer selects an invalid option, he or she is
                            transferred to an IRS employee (screener), who screens and
                            transfers the call to the appropriate CSR to answer the
                            taxpayer’s question.
                            Because of the complexity of the tax law and the need to
                            serve millions of taxpayers with tax law questions, the IRS
                            has divided the types of tax law questions commonly
                            received into categories called “applications.” These


                            3
                              Outside the filing season, the automated menu provides fewer options.
                            4
                              Wage and Tax Statement (Form W-2) and Miscellaneous Income
                            (Form 1099). Form 1099 is a series of forms used to report various
                            types income, such as Miscellaneous, Interest, and Dividend Income.
                                                                                            Page 2
Additional Effort Answering Tax Law Questions Would Improve Customer Service

                            applications are designed to group calls with similar tax law
                            subjects. For example, calls about the various types of tax
                            credits are all routed to one application, and calls about
                            Individual Retirement Arrangements are routed to another.
                            The IRS believes training CSRs to answer questions in
                            specific applications is a more efficient use of its resources
                            and will improve the quality and accuracy of the answers
                            provided to taxpayers because the CSRs have specialized
                            knowledge.
                            Each application is staffed with CSRs trained to answer
                            questions in a particular application(s). Because the IRS has
                            trained each CSR in a specific application(s), a taxpayer
                            with multiple questions that cross more than one tax topic or
                            application will probably speak with multiple CSRs to have
                            his or her questions answered.
                            CSRs are provided with numerous tools to help them
                            answer tax law questions. One tool CSRs use is the Probe
                            and Response (P&R) Guide. The P&R Guide is designed to
                            give CSRs scripts to follow to ensure they address all issues
                            related to a taxpayer’s particular question. For example,
                            there are scripts for questions on Who Must File,
                            Dependents, Charitable Contributions, Individual
                            Retirement Arrangements, and the Child Tax Credit.
                            During the 2004 Filing Season, there were 88 individual
                            P&R Guide scripts available. The Internal Revenue Manual
                            requires CSRs to use the available P&R Guide scripts, when
                            applicable, to help ensure taxpayers receive correct and
                            complete answers to their tax law-related questions. The
                            IRS is also concerned that, without sufficient use of the
                            P&R Guide, CSRs are unable to fully understand a
                            taxpayer’s situation and may provide guidance and
                            information that is incorrect or incomplete. Therefore, the
                            Director, Accounts Management, W&I Division, included in
                            the FY 2004 Program Letter that failure to use the Guide
                            would be addressed as both a conduct and performance
                            issue.
                            If a taxpayer with a tax law question calls 1-800-829-1040
                            and chooses menu item # 1 and then option # 5, getting help
                            with a tax law question, the taxpayer first speaks to a
                            screener. The screener greets the taxpayer, provides
                            identifying information, and asks the taxpayer how he or she
                            may direct the call. If necessary, the screener asks the
                                                                                   Page 3
Additional Effort Answering Tax Law Questions Would Improve Customer Service

                            taxpayer questions to target the purpose of the call. If
                            needed, the screener paraphrases or asks the taxpayer more
                            questions before deciding where to transfer the call. Once
                            the screener determines the topic, the screener uses the
                            Telephone Transfer Guide to transfer the taxpayer to the
                            correct procedural or tax law application.
                            For example, a taxpayer having questions about whether he
                            or she can claim his or her 19-year-old child as a dependent
                            and whether he or she can claim the Child Tax Credit
                            speaks:
                            First.       With a screener who determines the taxpayer has
                                         a question about dependents and transfers the
                                         taxpayer to the first CSR to answer the question
                                         on dependents.5
                            Second.      With a CSR trained on the dependency topic.
                                         The CSR asks several questions to determine
                                         whether the taxpayer can claim the dependent
                                         exemption. The CSR first asks if the child has a
                                         valid Taxpayer Identification Number (TIN) and
                                         for the amount of the taxpayer’s Adjusted Gross
                                         Income (AGI)6 because exemptions are phased
                                         out if the AGI exceeds filing status amounts.
                                         If the child has a valid TIN and the AGI is within
                                         appropriate limits, five more tests must be met
                                         for the taxpayer to claim the child as a
                                         dependent. These tests are:
                                         •    Member of Household or Relationship Test.
                                              The CSR asks for information concerning the
                                              nature of the relationship (son, daughter,
                                              niece, etc.) or, if the child is not a qualifying
                                              relative, how long the child has lived in the
                                              home with the taxpayer.
                                         •    Citizenship Test. The CSR asks if the child
                                              is a United States citizen or resident alien.

                            5
                              Screeners transfer taxpayers to applications that are staffed with CSRs
                            who are certified in answering specific inquiries. Screeners are
                            instructed not to answer taxpayer questions. There is no priority order
                            for transfers; the screener may transfer the taxpayer to any application
                            that answers one of his or her questions.
                            6
                              AGI is a taxpayer’s gross income for the year adjusted for certain
                            exclusions from income provided for in the Internal Revenue Code.
                                                                                              Page 4
Additional Effort Answering Tax Law Questions Would Improve Customer Service

                                       •   Joint Return Test. The CSR asks if the child
                                           is single or married.
                                       •   Gross Income Test. The CSR asks for the
                                           amount of the child’s gross income.
                                       •   Support Test. The CSR asks for the amount
                                           of support the taxpayer provided the child
                                           during the tax year.
                                       If all five tests are met, the CSR advises the
                                       taxpayer that he or she may claim the child as a
                                       dependent. The CSR asks if the taxpayer has
                                       further questions. Since the taxpayer in this
                                       example has a question about whether he or she
                                       can claim the Child Tax Credit, the CSR
                                       transfers the taxpayer to another CSR trained in
                                       the Credits application.
                            Third.     With a CSR trained in the Credits application.
                                       The CSR asks the taxpayer a series of questions
                                       to determine whether the taxpayer qualifies for
                                       the Child Tax Credit. The CSR asks the
                                       taxpayer if the child’s age is greater than 17.
                                       Since the child is 19 years of age, the P&R
                                       Guide script instructs the CSR to advise the
                                       taxpayer that he or she is not eligible for the
                                       Child Tax Credit because the child has exceeded
                                       the maximum age limit.
                            The IRS uses the Embedded Quality (EQ) system to
                            measure the quality of taxpayer assistance in the areas of
                            professionalism, timeliness, and customer accuracy. The
                            EQ system links employee performance to organizational
                            results related to the quality of customer service. This
                            method was designed to distinguish between “wrong”
                            answers and procedural errors that do not affect the
                            accuracy of the answer. See Appendix V for details on the
                            EQ system.
                            The IRS toll-free telephone systems have the ability to trace
                            one call from the time the IRS’ telephone service provider
                            delivers the call to the IRS to the time the call is terminated,
                            but the IRS does not do so because of the large volume of
                            calls it receives. Therefore, we could not determine how
                            long it took the taxpayers we monitored to get answers to all
                            their questions. The IRS does, however, monitor key
                                                                                     Page 5
       Additional Effort Answering Tax Law Questions Would Improve Customer Service

                                   segments in the “life” of a call (e.g., the segment from the
                                   time a screener answered the call to when it was transferred
                                   to a CSR, or from the time a CSR connected to the taxpayer
                                   to the time the taxpayer was transferred or the call ended).
                                   The IRS believes this provides indications of the type of
                                   service the average caller receives. In addition, the IRS’
                                   remote monitoring system only allows monitoring of
                                   segments. Because we used this same system to monitor
                                   our judgmental sample of calls, we were unable to track the
                                   taxpayers we monitored from the time they connected to the
                                   IRS through completion of the calls. Instead, we could only
                                   monitor segments of the calls.
                                   The audit was conducted in the IRS W&I Division
                                   Headquarters in Atlanta, Georgia, during the period January
                                   through April 2004. Calls were monitored at 16 IRS toll-
                                   free call sites assigned to the default screener application
                                   and 8 IRS toll-free call sites assigned to tax law applications
                                   that answered tax law questions from English-speaking
                                   taxpayers in January and February 2004. The audit was
                                   conducted in accordance with Government Auditing
                                   Standards. Detailed information on our audit objective,
                                   scope, and methodology is presented in Appendix I. Major
                                   contributors to the report are listed in Appendix II.
                                   IRS employees are courteous and respectful and spend an
Customer Service on the
                                   appropriate amount of time with taxpayers when answering
Toll-Free Telephone Lines Has
                                   their tax law questions. Using a judgmental sample of
Not Reached “World-Class
                                   129 screener and 354 CSR monitored calls and the IRS’ EQ
Service” Level
                                   Attributes to rate them, we determined employees provided
                                   professional and timely service. However, CSRs provided
                                   taxpayers with accurate answers to their tax law questions
                                   for only 62 percent (200 of 322)7 of the calls monitored.
                                   This happened, for the most part, because CSRs are not
                                   using or completely using the P&R Guide scripts or are not
                                   correctly interpreting the tax law. Of the 122 toll-free tax
                                   law calls in which taxpayers received inaccurate (incorrect
                                   or incomplete) answers, it is probable that 97 (80 percent)
                                   taxpayers would have received a correct and complete
                                   answer if the CSR had thoroughly used the P&R Guide and
                                   obtained sufficient information from the taxpayers. See

                                   7
                                    CSRs answered taxpayers’ questions for 322 of the 354 CSR calls
                                   monitored. The remaining 32 calls (354-322=32) were transferred to
                                   other CSRs. We were unable to follow the taxpayers through transfers.
                                                                                                 Page 6
Additional Effort Answering Tax Law Questions Would Improve Customer Service

                            Appendix VI for a comparison of the calls monitored by the
                            Treasury Inspector General for Tax Administration
                            (TIGTA) and IRS by topic for the same time period.
                            The accuracy rate decreased from the 73 percent we
                            reported last year for the period January 27 through
                            March 13, 2003.8 The need for CSRs to fully probe
                            taxpayers for information to ensure they provide accurate
                            answers to tax law questions is an ongoing issue that both
                            the IRS and we have previously identified.
                            The IRS’ mission is to provide top-quality service to
                            taxpayers. Its W&I Division supports this mission by
                            offering products and services tailored to particular taxpayer
                            needs. CSRs must assist taxpayers in a manner that
                            warrants the highest degree of public confidence.
                            Taxpayers rely on the IRS to be the expert in explaining the
                            tax law. While CSRs are consistently courteous and limit
                            their conversations with taxpayers so as many taxpayers as
                            possible can speak with a CSR, additional effort is
                            necessary for the IRS to achieve its goal of being a
                            “world-class customer service organization.”
                            Screeners and CSRs were professional when responding
                            to taxpayers
                            Using IRS EQ Attributes to rate the monitored screener and
                            CSR calls on professionalism, we determined the screeners
                            and CSRs, respectively, provided professional service for
                            99 percent (513 of 520 opportunities)9 and 98 percent
                            (1,867 of 1,904 opportunities). The IRS defines
                            professional service as promoting a positive image of the
                            IRS by using effective communication techniques.
                            For the calls monitored, the employees provided a
                            professional greeting and communicated with clear and
                            appropriate language, used courteous and respectful tones,
                            listened to the taxpayers in an effective manner to maximize
                            understanding, and apologized for IRS errors when
                            appropriate. In addition, when appropriate, they provided
                            taxpayers with an explanation of why a series of questions is

                            8
                              Toll-Free Tax Law Assistance to Taxpayers Is Professional and
                            Timely, but Improvement Is Needed in the Information Provided
                            (Reference Number 2003-40-216, dated September 2003).
                            9
                              Each call is rated for various attributes, known as opportunities. Every
                            attribute is not applicable to every call.
                                                                                              Page 7
Additional Effort Answering Tax Law Questions Would Improve Customer Service

                            required. For the same time period, the IRS reported that
                            99 percent (1,608 of 1,621 opportunities) of its screeners
                            and 100 percent10 (9,276 of 9,306 opportunities) of its CSRs
                            followed procedures for providing professional service. The
                            IRS’ professionalism goal for screeners and CSRs is
                            99 percent for FY 2004.
                            Screeners and CSRs were timely when responding to
                            taxpayers
                            Using IRS EQ Attributes to rate the monitored screener and
                            CSR calls on timeliness, we determined the screeners and
                            CSRs were timely for 100 percent (135 of 135) and
                            98 percent (469 of 477), respectively, of the opportunities.
                            The IRS defines timeliness as resolving an issue in the most
                            efficient manner through the use of proper workload
                            management and time use techniques. Timeliness is
                            measured by factors or actions that are controllable by the
                            screeners and CSRs, including whether the employee
                            controlled unrelated or unnecessary dialogue initiated by the
                            taxpayer and restrained from initiating extraneous dialogue
                            with the taxpayer. An additional timeliness attribute
                            measures whether the employee placed the taxpayer on hold
                            for research purposes for an appropriate length of time
                            based on the complexity of the issue.
                            For the same time period, the IRS reported that nearly
                            100 percent (421 of 423 opportunities) of its screeners and
                            99 percent (2,176 of 2,193 opportunities) of its CSRs
                            followed procedures for providing timely service. The IRS’
                            timeliness goal for screeners and CSRs is 99 percent for
                            FY 2004.
                            Although we could determine whether screeners and CSRs
                            provided timely service to each taxpayer on the segments of
                            the calls we monitored, we could not determine how long it
                            took the taxpayers to get answers to all their questions. The
                            IRS estimates taxpayers spent between 10 minutes
                            49 seconds and 22 minutes 51 seconds on the telephone
                            from the time a taxpayer dialed 1-800-829-1040 until the
                            taxpayer obtained an answer from 1 CSR.
                            In addition, in our sample, taxpayers spoke to more than
                            1 CSR to obtain answers to their questions in 25 percent

                            10
                                 This percentage is rounded up to 100 percent.
                                                                                   Page 8
Additional Effort Answering Tax Law Questions Would Improve Customer Service

                            (87 of 354) of CSR call segments monitored. The IRS
                            stated the actual 2004 Filing Season ratio of tax law calls to
                            services is 1 to 1.3, which means about one-third of all
                            taxpayers calling with a tax law question spoke with more
                            than 1 CSR.
                            CSRs provided accurate answers to 62 percent of tax
                            law questions11
                            Using IRS EQ Attributes to rate the monitored screener12
                            and CSR calls on accuracy, we determined the CSRs
                            provided complete and correct answers to only 62 percent
                            (200 of 322 opportunities) of the calls monitored. The IRS
                            considers a response “complete and correct” when the CSR
                            obtains sufficient information to answer the question and
                            gives a correct and complete answer. The IRS’ definition of
                            accuracy does not take into consideration any additional
                            issues or procedures that do not directly affect the taxpayer.
                            IRS results from a sample of 1,527 tax law question calls
                            monitored for customer accuracy during the same time
                            period and for the same tax law applications indicated a
                            customer accuracy rate of 74 percent (1,132 of
                            1,527 opportunities). The IRS’ tax law accuracy goal for
                            CSRs is 85 percent for FY 2004. Table 1 summarizes the
                            results of the 322 calls we monitored.
                                             Table 1: Results of 322 Monitored Calls

                                                                 Total      Correct       Incorrect

                                 Required P&R Guide               214          110           104

                                 Did Not Require P&R Guide         78          65             13

                                 Procedural Topics                 25          25              0

                                 Issues Unidentified                5           0              5

                                 Total                            322          200           122
                            Source: Calls monitored by the TIGTA for the period January 20
                            through February 18, 2004.


                            11
                               Only calls in which the CSR provides an answer to the taxpayer’s
                            question are rated for accuracy.
                            12
                               Seven screeners attempted to answer taxpayer questions. These
                            screeners provided one incomplete, three incorrect, and three correct
                            responses to taxpayers’ questions.
                                                                                             Page 9
Additional Effort Answering Tax Law Questions Would Improve Customer Service

                            To be rated as providing a complete and correct answer for
                            tax law questions, CSRs must use all applicable elements of
                            the P&R Guide to respond to the questions or must interpret
                            the tax law correctly for those questions without an
                            applicable P&R Guide script. The CSRs were required to
                            use the P&R Guide for 66 percent (214 of 322) of the calls
                            we monitored. However, the CSRs did not use the P&R
                            Guide accurately or completely for 49 percent (104 of 214)
                            of those calls. In these instances, the CSRs either did not
                            ask or obtain all the appropriate information required by the
                            P&R Guide script, did not use the P&R Guide, used the
                            P&R Guide script but did not interpret the tax law correctly,
                            or did not give the required response.
                            The CSRs were not required to use the P&R Guide for
                            24 percent (78 of 322) of the calls we monitored. In these
                            instances, the CSR must obtain facts from the taxpayer and
                            interpret the tax law to answer the question. However, the
                            CSRs interpreted the tax law incorrectly or provided an
                            incorrect response for 17 percent (13 of 78) of the calls not
                            requiring the use of the P&R Guide.
                            For 2 percent (5 of 322) of the monitored calls, the CSRs
                            did not ask questions to identify and address the taxpayers’
                            issues to provide a correct and complete response. All
                            5 (100 percent) of these taxpayers received incorrect
                            answers. The remaining 8 percent (25 of 322) of the
                            monitored calls were not tax law questions; they related to
                            procedural topics. All of these 25 taxpayers (100 percent)
                            received a correct answer.
                            The first step toward achieving taxpayer compliance is
                            providing quality customer service. Although IRS
                            employees are professional and timely, the accuracy of the
                            answers is essential to meeting the goal of providing quality
                            customer service. However, we are making no
                            recommendations since the need to ensure better use of the




                                                                                  Page 10
Additional Effort Answering Tax Law Questions Would Improve Customer Service

                            P&R Guide was reported in our 2 prior year reviews of the
                            toll-free tax law assistance program.13
                            Management’s Response: IRS management noted that
                            providing customers with accurate tax law answers
                            remained a challenge during the 2004 Filing Season and
                            acknowledged less than satisfactory performance early in
                            the 2004 Filing Season. They agreed that most errors could
                            be avoided if the P&R Guide was used properly and stressed
                            to the CSRs and managers the importance of completely
                            using the P&R Guide. IRS management also noted that the
                            decline in the tax law accuracy rate was caused by a
                            formatting revision to the P&R Guide in FY 2003 that did
                            not enhance its usability as anticipated and that changes
                            made to improve customer access had a negative impact on
                            accuracy.




                            13
                              The Quality of Toll-Free Tax Law Assistance During the 2002 Filing
                            Season Improved; However, More Can Be Done to Improve Quality and
                            Enhance Service (Reference Number 2002-40-137, dated August 2002),
                            and Toll-Free Tax Law Assistance to Taxpayers Is Professional and
                            Timely, but Improvement Is Needed in the Information Provided
                            (Reference Number 2003-40-216, dated September 2003).




                                                                                       Page 11
       Additional Effort Answering Tax Law Questions Would Improve Customer Service

                                                                                                   Appendix I


                            Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether taxpayers received quality service
when calling the Internal Revenue Service (IRS) Toll-Free Customer Service telephone number
(1-800-829-1040) to ask a tax law question during the 2004 Filing Season.1 Specifically, we
determined the process the taxpayer experienced and the quality of the response received when
calling to get an answer to a tax law question.
To accomplish our objective, we:
I.         Identified the program’s goals and measures for providing quality service for Fiscal
           Year 2004 by discussing them with the IRS and researching IRS strategies, plans,
           reviews, and budgets.
II.        Determined how the IRS monitors, measures, and improves the quality of service
           provided by toll-free telephone operations tax law screeners and Customer Service
           Representatives (CSR).
III.       Obtained and reviewed the 2004 Filing Season Readiness Certifications from the
           Director, Accounts Management, Wage and Investment Division, and the five Field
           Directors, Accounts Management.
IV.        Prepared a judgmental sampling plan to monitor 112 screener and 336 tax law calls
           Monday through Friday, excluding holidays, during the period January 20 through
           February 27, 2004. We selected a judgmental sample due to limited staff resources while
           attempting to monitor calls that were representative of the business workday hours of
           operation for the eight IRS call sites that answered toll-free tax law questions from
           English-speaking taxpayers during this time. To determine the calls to be monitored by
           tax law application, site, and hour of day, we performed the following analyses:
           A. Determined the volumes and percentages of projected calls for the screener and 9 of
              11 tax law applications to be monitored and the volumes and percentages of projected
              calls by call site for IRS Planning Period 2 (PP2) (PP2 is from January–June). We
              did not monitor tax law calls from the Business Issues and the Complex Individual
              Issues Applications.
           B. Determined the expected time of day with the greatest call volumes to be 8:30 a.m. to
              5:30 p.m. Central Standard Time by reviewing planned staffing by half-hour
              increments for the three tax law applications with the greatest projected call volumes
              for PP2.


1
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                      Page 12
       Additional Effort Answering Tax Law Questions Would Improve Customer Service

         C. Calculated the percentage of the planned 112 screener calls to be monitored at the
            16 screener call sites and the planned 336 CSR calls to be monitored by 9 tax law
            applications at the 8 tax law call sites.
         D. Remotely monitored 129 screener calls and 354 tax law CSR calls by tax law
            application and documented the conversations from January 20 through
            February 18, 2004.2
V.       Using the Embedded Quality (EQ) Measurement System used by the IRS to rate the
         screeners and CSRs, rated the quality of responses for 129 screener and 354 tax law CSR
         calls monitored.
VI.      Obtained and analyzed toll-free telephone documentation regarding the following:
         •   Calls Received, Assistor Calls Answered, and Services Provided.
         •   An estimated volume of Tax Law Assistor Calls Answered.
         •   An average amount of time (by application) a taxpayer would be on the telephone
             from the time he or she connected to the 1-800-829-1040 menu script, to when he or
             she completed the call after receiving service from one CSR.
VII.     Provided copies of exceptions weekly to the IRS for agreement to the quality rating of
         each monitored call.
VIII.    Determined the results of the IRS’ EQ reviews achieved during our testing period.
IX.      Discussed results with appropriate IRS personnel




2
 We discontinued monitoring screener calls on February 17, 2004, and tax law CSR calls on February 18, 2004,
when the sampling plan was accomplished for each site and application.


                                                                                                       Page 13
    Additional Effort Answering Tax Law Questions Would Improve Customer Service

                                                                                Appendix II


                           Major Contributors to This Report

Michael R. Phillips, Assistant Inspector General for Audit (Wage and Investment Income
Programs)
Augusta R. Cook, Director
Paula W. Johnson, Audit Manager
Lynn Faulkner, Lead Auditor
Jack Forbus, Senior Auditor
Sharon Shepherd, Senior Auditor
Robert Baker, Auditor
Jerry Douglas, Auditor
Andrea McDuffie, Auditor
Geraldine Vaughn, Auditor




                                                                                         Page 14
    Additional Effort Answering Tax Law Questions Would Improve Customer Service

                                                                            Appendix III


                               Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Services and Enforcement SE
Deputy Commissioner, Wage and Investment Division SE:W
Director, Customer Account Services, Wage and Investment Division SE:W:CAS
Director, Strategy and Resources Management, Wage and Investment Division SE:W:S
Acting Chief, Performance Improvement, Wage and Investment Division SE:W:S:PI
Director, Accounts Management, Wage and Investment Division SE:W:CAS:AM
Director, Joint Operations Center, Wage and Investment Division SE:W:CAS:JOC
Chief Counsel CC
National Taxpayer Advocate TA
Director, Office of Legislative Affairs CL:LA
Director, Office of Program Evaluation and Risk Analysis RAS:O
Office of Management Controls OS:CFO:AR:M
Audit Liaison: Acting Senior Operations Advisor, Wage and Investment Division SE:W:S




                                                                                  Page 15
       Additional Effort Answering Tax Law Questions Would Improve Customer Service

                                                                                                   Appendix IV


                                             Outcome Measures

This appendix presents detailed information on the measurable impact our results will have on
tax administration. This benefit will be incorporated into our Semiannual Report to the
Congress.
Type and Value of Outcome Measure:
•     Taxpayer Burden – Actual; 122 taxpayers (see page 6).
Methodology Used to Measure the Reported Benefit:
We monitored a judgmental sample of 354 live taxpayer toll-free tax law calls received by the
Internal Revenue Service (IRS) between January 20 and February 18, 2004. Although our
judgmental sample was not random (i.e., it could not produce statistically valid results), we
nevertheless attempted to ensure it was representative of the population by creating a sampling
plan in which the percentage of calls monitored by type of tax law question was reflective of the
IRS’ planned 2004 Filing Season1 volumes of calls per type of tax law question (referred to as
applications). We included calls serviced by eight IRS call sites that answered toll-free tax law
questions from English-speaking taxpayers during this time. The Customer Service
Representatives (CSR) transferred 32 of the 354 calls to another toll-free area without the
taxpayer receiving assistance from the first CSRs; therefore, we could not evaluate these 32 calls
for customer accuracy. Of the 322 calls monitored for customer accuracy, 122 (38 percent)
received inaccurate (incorrect and/or incomplete) answers to the related tax law questions.
We measured the customer accuracy of each call response by using the IRS’ seven attributes to
determine whether the CSR asked questions to obtain sufficient information to identify the tax
law issue and correctly applied the information to lead to a correct and complete response. The
seven attributes were divided into four categories (Probe and Response (P&R) Guide, Non-P&R
Guide, Procedural Action/Answer, and Identification of Issue). An error in any one of the
associated attributes resulted in an error in customer accuracy. These seven attributes are
Apparent Use of the P&R Guide, Complete Use of the P&R Guide, Complete Answer per the
P&R Guide, Obtain/Determine Tax Law Facts, Interpret/Apply Tax Law, Appropriate
Procedural Action/Answer, and Issue Identification (see Appendix VII).
Of the 122 toll-free tax law calls that received an inaccurate answer, 104 (85 percent) required
the use of the P&R Guide. In these instances, the CSRs did not ask or obtain all the appropriate
information required by the P&R Guide script, did not use the P&R Guide, used the P&R Guide
script but did not interpret the tax law correctly, or did not give the required response. For
13 (11 percent) of the 122 inaccurate responses, the P&R Guide was not required; however, the


1
    The period from January through mid-April when most individual income tax returns are filed.
                                                                                                       Page 16
    Additional Effort Answering Tax Law Questions Would Improve Customer Service

CSRs did not interpret the tax law correctly, did not obtain all the necessary facts, or did not
provide a correct response. For the remaining 5 (4 percent) inaccurate responses, the CSRs did
not ask questions to identify and address the taxpayer’s issue to provide a correct and complete
response.
Increased and more complete use of the P&R Guide and additional training on correctly
interpreting the tax law should have reduced taxpayer burden for 122 taxpayers during the
2004 Filing Season.




                                                                                          Page 17
     Additional Effort Answering Tax Law Questions Would Improve Customer Service

                                                                                                   Appendix V


                                            Embedded Quality

On October 1, 2002, the Internal Revenue Service (IRS) implemented a revised system for
measuring the quality of taxpayer assistance which links employee performance to
organizational results related to the quality of customer service. The Embedded Quality (EQ)
system replaced the previous “pass/fail” method and uses instead a “defect-per-opportunity”
method. This method was designed to distinguish between wrong answers and procedural
defects that do not affect the accuracy of the answer.
The comprehensive measures include timeliness, professionalism, and accuracy (comprised of
customer, regulatory, and procedural accuracy). Customer Accuracy reflects whether the
Customer Service Representative (CSR) gave a correct/complete response/resolution to the
taxpayer’s issue. This measurement system was used on the toll-free telephone operations
beginning with the 2003 Filing Season.1
The IRS Centralized Quality Review Staff measures the service provided by toll-free telephone
operations CSRs by listening to a statistically valid sample of live taxpayer calls from among the
various tax law applications2 and rating the calls using the IRS EQ system.

In the EQ measurement and calculation process, the measures are calculated using the percentage
correct based on the number of opportunities for defect within each of five “buckets.” The
buckets are divided into Accuracy, Professionalism, and Timeliness; the Accuracy bucket is
further subdivided into Customer Accuracy, Regulatory Accuracy, and Procedural Accuracy
buckets. They are defined as follows:
      •      Customer Accuracy: giving the correct answer with the correct resolution.
             “Correct” is measured based upon the taxpayer receiving a correct response or
             resolution to his or her case or issue and, if appropriate, the CSR taking the necessary
             case actions or case disposition to provide this response or resolution. For the
             purpose of coding, reviewers do not take into consideration any additional IRS issues
             or procedures that do not directly affect the taxpayer’s issue or case. This
             measurement system was baselined on the toll-free telephone operations during the
             2003 Filing Season. For Fiscal Year 2004, the IRS’ goal for Toll-Free Tax Law
             Customer Accuracy is 85 percent.




1
  The period from January through mid-April when most individual income tax returns are filed.
2
  Nine applications (categories) are shown in Appendix VI along with the related percentage of calls monitored by
the Treasury Inspector General for Tax Administration and the IRS. The applications change periodically and,
although the IRS planned and projected 2004 Filing Season call volumes for 11 tax law applications, 1 application
(Business Issues) was not used or monitored.
                                                                                                          Page 18
    Additional Effort Answering Tax Law Questions Would Improve Customer Service

     •     Regulatory Accuracy: adhering to statutory/regulatory process requirements when
           making determinations on taxpayer accounts.
     •     Procedural Accuracy: adhering to nonstatutory/nonregulatory internal process
           requirements.
     •     Professionalism: promoting a positive image of the IRS by using effective
           communication techniques.
     •     Timeliness: resolving an issue in the most efficient manner through the use of proper
           workload management and time use techniques.
We also used the EQ system to perform our review. Although we used a judgmental sample and
the IRS used a statistically valid sample to measure the performance of the toll-free telephone
operations CSRs, the results of the two independent reviews were similar in determining the
areas in which improvements are needed.




                                                                                        Page 19
        Additional Effort Answering Tax Law Questions Would Improve Customer Service

                                                                                                 Appendix VI


          Comparison of Treasury Inspector General for Tax Administration and
            Internal Revenue Service Calls Monitored by Question Category

                              QUESTION CATEGORY                            TIGTA1      IRS2

                    Filing Status/Dependents                                 26%       29%
                    Credits                                                  20%       18%
                    Advanced Individual Issues                               13%        6%
                    Small Business                                           10%       13%
                    Income                                                   9%         9%
                    Pension/Social Security Benefits                         8%        10%
                    Individual Retirement Arrangements                       8%         4%
                    Deductions                                               3%         7%
                    Capital Gains and Losses (Schedule D)/
                                                                             3%         2%
                    Sale of Home
                   Source: Results of the TIGTA and IRS independent reviews of 9 of 10 toll-free tax law
                   category/application calls monitored between January 20 and February 18, 2004, during the hours
                   of 8:30 a.m. to 5:30 p.m. Central Standard Time, excluding weekends and holidays.




1
    Treasury Inspector General for Tax Administration (TIGTA).
2
    Internal Revenue Service (IRS). Percentages do not total to 100 due to rounding.
                                                                                                         Page 20
    Additional Effort Answering Tax Law Questions Would Improve Customer Service

                                                                                    Appendix VII


              Quality Measures Used to Evaluate Taxpayers’ Experience

In the Embedded Quality (EQ) measurement and calculation process, the measures are calculated
using the percentage correct based on the number of opportunities for defect within each of five
“buckets.” The buckets are divided into Professionalism, Timeliness, and Accuracy; the
Accuracy bucket is further subdivided into Customer Accuracy, Regulatory Accuracy, and
Procedural Accuracy buckets.
The EQ system uses a “defect-per-opportunity” method to distinguish between wrong answers
and procedural defects. Each call is rated for various attributes, known as opportunities. Every
attribute is not applicable to every call. The following attributes were used to rate the monitored
screener and Customer Service Representative (CSR) calls.

Professionalism

   1. Greeting – Did the CSR open the call in a professional manner and offer to help the
      taxpayer?
   2. Purpose Statement – When appropriate, did the CSR explain the process or actions to be
      taken to the taxpayer?
   3. Closing – Did the CSR appropriately close the contact with the taxpayer?
   4. Communication – Did the CSR use clear and appropriate language with no jargon to
      ensure communication is complete with the taxpayer?
   5. Courteous – Did the CSR provide courteous service by speaking in a respectful tone and
      checking back with the taxpayer at appropriate intervals when placed on hold?
   6. Effective Listening – Did the CSR listen to the taxpayer in an effective manner to
      maximize understanding without repeating facts that were already provided?
   7. Apologized – When appropriate, did the CSR apologize to the taxpayer for Internal
      Revenue Service (IRS) errors, including a long hold time?

Timeliness

   1. Appropriate Use of Talk Time – Did the CSR control the conversation and avoid
      extraneous dialogue with the taxpayer?
   2. Appropriate Hold Time – Did the CSR use the appropriate length of hold time for the
      complexity of the issue?


                                                                                           Page 21
   Additional Effort Answering Tax Law Questions Would Improve Customer Service

  3. Efficient Response/Resolution – Did the CSR take actions in an efficient manner to
     prevent any unnecessary delay to resolve the taxpayer’s issue?

Customer Accuracy

  1. Correct/Compete Response/Resolution – Did the CSR provide a correct/complete
     response/resolution to the taxpayer’s issue?

Regulatory Accuracy

  1. Assistor Identification (ID) – Did the CSR identify himself or herself by name and ID
     number?
  2. Interpret/Apply Tax Law – Did the CSR interpret/apply the tax law correctly?

Procedural Accuracy

  1. Issue Identification – Did the CSR ask questions, listen, and paraphrase the taxpayer’s
     question to identify and address the correct tax law issue to lead to a correct and complete
     response?
  2. Appropriate Transfer – Did the CSR correctly identify and transfer the call without
     resolving the taxpayer’s issues when needed?
  3. Appropriate Referral – Did the CSR answer a tax law question that is on the application
     the CSR is assigned to and transfer the taxpayer to another application/trained CSR to
     obtain an answer to a second question?
  4. Apparent Use of Probe and Response (P&R) Guide – Was there apparent use of the P&R
     Guide by the CSR?
  5. Complete Use of P&R Guide – Did the CSR address all appropriate probes according to
     the P&R Guide?
  6. Complete Response per P&R Guide – Did the CSR provide a complete response per the
     P&R Guide?
  7. Obtain/Determine Tax Law Facts – Did the CSR obtain/determine the appropriate facts
     on tax law issues not covered by the P&R Guide?
  8. Appropriate Procedural Action/Answer – Did the CSR take/provide the appropriate
     action/response?
  9. Input Form Order – Did the CSR input or prepare a form order for the taxpayer?
  10. Time Frames – Did the CSR explain required IRS time frames or deadlines to the
      taxpayer?

                                                                                         Page 22
Additional Effort Answering Tax Law Questions Would Improve Customer Service

                                                                 Appendix VIII


               Management’s Response to the Draft Report




                                                                        Page 23
Additional Effort Answering Tax Law Questions Would Improve Customer Service




                                                                        Page 24
